    MODIFICATIONS TO THE TUBE-LAUNCHED, OPTICALLY
     TRACKED, WIRE-COMMAND MISSILE LAUNCHER FOR
         THE BRADLEY FIGHTING VEHICLE SYSTEM


Report Number 98-165                           June 25, 1998




             Office of the Inspector General
                 Department of Defense
~Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 6048937 (DSN 6648937) or FAX (703) 6048932 or visit the Inspector
General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 6048908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; b sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing the De iyense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

ACU                   Armament Control Unit
DMWR                  Depot Maintenance Work Requirement
MWO                   Modification Work Order
TOW                   Tube-Launched, Optically Tracked, Wire-Command
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON. VIRGINIA 22202




                                                                           June 25, 1998

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
                            (LOGISTICS)
                         AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Modifications to the Tube-Launched, Optically Tracked,
         Wire-Command Missile Launcher for the Bradley Fighting Vehicle System
         (Report No. 98-165)


        We are providing this report for information and use. This report is the first in
a series of reports on the consolidation of tactical missile maintenance work loads at
Letterkenny Army Depot in response to a request from the Deputy Under Secretary of
Defense (Logistics). We considered management comments on a draft of this report in
preparing the final report.

        Based on management comments, Recommendation 5. was revised. Comments
on a draft of this report conformed to the requirements of DOD Directive 7650.3 and
left no unresolved issues. Therefore, no additional comments are required.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
 should be directed to Mr. John A. Gannon at (703) 604-9176 (DSN 664-9176) email
jgannon@dodig.osd.mil or Mr. Stephen T. Hampton at (703) 604-9194
 (DSN 664-9194) email shampton@dodig.osd.mil.        See Appendix E for the report
distribution. The audit team members are listed inside the back cover.




                                  Deputy Assistant Inspector General
                                            for Auditing
                          Offke of the Inspector General, DOD
Report No. 98-165                                                         June 25,199s
 (Project No. 7LB-503 1.02)



          Modifications to the Tube-Launched, 0 tically Tracked,
                    Wire-Command Missile LauncR er for
                     the Bradley Fighting Vehicle System

                                 Executive Summary

Introduction.    This report is the first in a series of reports on the consolidation of
tactical missile maintenance work loads at Letterkenny Army Depot. This audit was
performed in response to a request by the Deputy Under Secretary of Defense
(Logistics). As part of the audit, we reviewed the work loads associated with
depot-level maintenance and repairs and depot-level modifications performed for the
Tube-Launched, Optically Tracked, Wire-Command (TOW) missile launcher for the
Bradley Fighting Vehicle System (TOW missile launcher). Our preliminary review of
the TOW missile launcher modification requirements identified potential problems
concerning field execution of a modification required to be completed by
September 1999.

Audit Objectives. Our overall audit objective was to evaluate the cost and benefits
associated with the consolidation of tactical missile guidance and control maintenance
work loads at Letterkenny Army Depot and to evaluate the management control
program as it relates to the audit objective. Our specific audit objective was to
determine whether field modification teams were modifying and testing the TOW
missile launcher as prescribed by the Department of the Army modification work
order 9- 1425-453-50.

The overall audit objective will be discussed in a future report. We did not review the
management control program because the General Accounting Office has identified
material management control weaknesses within the Army’s management of the
Modification Work Order Program and corrective actions have been initiated.

Audit Results. More than 800 TOW missile launcher armament control units have
been modified in the field with no assurance that the system design specifications have
been met. As a result, interchangeability and overall reliability of the armament
control units may have been degraded. Also, if the approximately 1,200 additional
units are modified in the field by September 1999, as scheduled, without enforcing
 uality assurance requirements, more than 2,000 ACUs, valued at more than
8 12 million, may not reliably operate in accordance with design specifications. See
Part I for a discussion of the audit results.

Summary     of Recommendations.     We recommend that the Army Acquisition
Executive, in coordination with the Army Deputy Chief of Staff (Logistics), initiate a
thorough technical evaluation of the design specifications for the armament control unit
umbilical and motor stop switches to determine the full effect of not meeting the
specifications, evaluate the adequacy of test equipment and procedures updating them
as necessary, determine the necessity of performing corrective actions to previously
modified TOW missile launchers, and direct that all work loads for future field
modifications comply with updated modification quality assurance requirements.

Management      Comments. The Army agreed to initiate a technical evaluation of the
design specifications for the armament control unit to determine the full effect of not
meeting the design specification and stated that a technical evaluation is scheduled for
completion June 30, 1998. The Army also agreed to evaluate the adequacy of test
equipment and procedures in view of the results of the technical evaluation and to
update the depot maintenance work requirement 9-1440-453-l and modification work
order 9-1425-453-50 after the technical evaluation was completed. The Army further
concurred with determining the necessity of performing corrective actions to previously
modified TOW missile launchers and stated that results from testing a sample of
modified armament control units would provide the basis for a decision on what
corrective action may be required.

The Army nonconcurred with the draft recommendation that all future field
modifications be performed by Letterkenny Army Depot to ensure compliance with
modification work order and depot maintenance work requirement quality assurance
requirements. The Army stated that the updated modification work order will address
quality assurance procedures and verification in accordance with Army policy. The
Army further stated that it is Army policy to perform modifications in the private sector
using best value as the criteria. As an alternative, the Army intends to award the
FY 1999 armament control unit modification program using best value criteria to either
Raytheon Systems Company or Letterkenny Army Depot. See Part I for a summary of
management comments and Part III for the complete text of management comments.

Audit Response. Comments from the Army were responsive. The proposed action to
perform future modification work loads in accordance with updated modification work
order and depot maintenance work requirement quality assurance requirements satisfies
the intent of the recommendation. We agree with the Army intention to award future
work loads using a best value approach and revised the recommendation to omit the
requirement to direct all future work loads to Letterkenny Army Depot. No additional
comments are required.




                                            ii
Table of Contents

Executive Summary                                                     i

Part I - Audit Results
      Introduction
      Audit Background
      Audit Objectives
      Field Modifications to the TOW Missile Launcher Armament
         Control Unit

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                                        16
        Management Control Program Review                            16
      Appendix B. Summary of Prior Coverage                          17
      Appendix C. Memorandum for Deputy Under Secretary of Defense
                  (Logistics)                                        19
      Appendix D. Field Modification Test Data                       21
      Appendix E. Report Distribution                                23

Part III - Management Comments
      Department of the Army Comments                                26
Part I - Audit Results
Introduction
     This report is the first in a series of reports on the consolidation of tactical
     missile maintenance work loads at Letterkenny Army Depot (Letterkenny).
     This audit was performed in response to a request by the Deputy Under
     Secretary of Defense (Logistics). As part of the audit, we reviewed the work
     loads associated with depot-level modifications performed for the
     Tube-Launched, Optically Tracked, Wire-Command (TOW) missile launcher
     for the Bradley Fighting Vehicle System (TOW missile launcher).

     Our preliminary review of the TOW missile launcher modification requirements
     identified potential problems concerning field execution of a modification
     required to be completed by September 1999. On December 23, 1997, we
     issued a memorandum to the Deputy Under Secretary of Defense (Logistics)
     detailing our concern (see Appendix C). The memorandum was intended to
     provide management an opportunity to evaluate the modification procedures and
     the adequacy of quality assurance testing performed during field modifications
     and to correct any existing deficiencies before executing future modifications.
     This report discusses our concerns with the field modifications.


Audit Background
     The TOW Missile Launcher. The TOW missile launcher (see Figure 1)




     Figure 1. TOW Missile Launcher

     is a device mounted on a Bradley Fighting Vehicle System that holds and
     launches TOW missiles. The TOW missile is the U.S. Army and U.S. Marine


                                          2
          Corps primary anti-tank and anti-armor weapon system. The TOW missile
          launcher primarily consists of a launcher structure and an armament control unit
          (ACU). The ACU provides the electrical interface between the missile and the
          launcher assembly, which includes routing prefire, fire, guidance, missile
          identification, and wire cut signals to and from the selected missile, and arms
          the missile. The TOW missile launcher is undergoing several modtfications
          including a modification to the ACU.

          ACU Modification. The ACU modification is a conversion of the TOW
          missile launcher to the latest configuration. The modification involves updating
          the ACU and replacing the missile stop. Available records indicate that
          2,052 field modifications*were to be performed and, as of January 1998,
          844 had been completed. The remaining 1,208 are scheduled to be completed
          by September 1999. The program executive office, specifically the Close
          Combat Anti-Armor Weapon Systems Program Executive Office, Redstone
          Arsenal, Alabama (the program office), is responsible for the management and
          execution of the ACU modification. The procedures for the ACU modification
          are defined in the Department of the Army modification work order (MWO)
          9-1425-453-50.

          In September 1994, a depot maintenance team from Red River Army Depot, the
          depot source of repair at the time, performed the initial field application of the
          MWO in Korea for the U.S. Army 2nd Infantry Division. Over 50 percent of
          the units modified failed when tested with live missiles. A team of contractor
          and Government personnel was dispatched to Korea to investigate the problems
          encountered. The consensus of the team was that the problems experienced
          were caused, in part, by the misalignment of the umbilical and motor stop
          switches in the ACU, specifically switches S 1 through S6. Additional
          information on the problems experienced in Korea is in Appendix B.

          The Government contracted with Raytheon Systems Company (formerly Hughes
          Aircraft Company) to develop a special gauge set and associated procedures to
          be used for aligning and testing the umbilical and motor stop switches. The cost
          to develop and deliver two gauge sets was $41,100. The depot maintenance
          work requirement (DMWR) was updated to require use of the new gauge set
          and procedures developed to ensure proper alignment of these switches. In
          April 1996, the new test equipment and authorization for provisional use of the
          updated DMWR were delivered to Letterkenny.

          The ACU modification is being performed both at Letterkenny and in the field.
          ACU field modifications are performed by field service representatives from
          Raytheon Systems Company. Raytheon Systems Company applies multiple
          modifications at each field location. Consequently, labor hours and associated
          travel costs are not tied to individual modifications. The program office
          estimated total expenditures at $1.2 million, as of April 8, 1998, for all field
          modifications performed. Because the ACU modification is tied to
          reimbursement for other modifications, the program office was unable to report
          to us how much was spent specifically on ACU modifications.



l   The exact number of ACUs modified and scheduled for future modification is unclear
    because of the incompleteness of contractor and Government records.


                                              3
Audit Objectives
     Our overall audit objective was to evaluate the cost and benefits associated with
     the consolidation of tactical missile guidance and control maintenance work
     loads at Letterkenny Army Depot and to evaluate the management control
     program as it relates to the audit objective. Our specific audit objective was to
     determine whether field modification teams were modifying and testing the
     TOW missile launcher as prescribed by the Department of the Army
     MWO 9- 1425-453-50.

     The overall audit objective will be discussed in a future report. We did not
     review the management control program as it relates to the specific audit
     objective because the General Accounting Office has identified material
     management control weaknesses within the Army’s management of the
     Modification Work Order Program and corrective actions have been initiated.
     See Appendix A for a discussion of the scope and methodology and Appendix B
     for a summary of prior coverage related to the audit objective.




                                          4
            Field Modifications to the TOW Missile
            Launcher ACU
            More than 800 TOW missile launcher ACUs have been modified in the
            field with no assurance that the system design specifications have been
            met. This occurred because the program office did not enforce the
            quality assurance requirements prescribed by the Department of the
            Army MWO 9-1425-453-50 and DMWR 9-1440-453-l. As a result,
            interchangeability and overall reliability of the armament control units
            could have been degraded. Also, if the approximately 1,200 additional
            units are modified in the field by September 1999, as scheduled, without
            enforcing quality assurance requirements, more than 2,OfKlACUs,
            valued at more than $12 million, may not reliably operate in accordance
            with design specifications.


Criteria
     Policy on Quality Assurance. The Federal Acquisition Regulation, part 46,
     “Quality Assurance, n October 21, 1997, paragraph 46.102 directs that agencies
     ensure that services or supplies tendered by contractors meet contract
     requirements. It further requires that Government contract quality assurance is
     conducted before acceptance by or under the direction of Government
     personnel.

     MWO 9-1425-453-50. The MWO issued November 1, 1993, establishes the
     instructions and requirements for applying the modification to the ACU. It
     requires that a depot maintenance team perform the modification and specifies
     the special tools, jigs, test measurement, diagnostic equipment, and fixtures
     required to perform the modification. It also requires that quality assurance
     testing be performed as prescribed by DMWR 9-1440-453-1, January 14, 1997.

     DMWR 9-1440-453-l. The DMWR contains the instructions for performing
     depot maintenance on the TOW missile launcher, to include technical support
     requirements, pre-shop analysis, overhaul procedures, and quality assurance
     requirements. The DMWR further stipulates that when work can be
     accomplished only in a manner other than specified, prior approval must be
     obtained by submitting a request for deviation or waiver to the program office.
     The DMWR instructions are for use by contractor or depot personnel, and take
     precedence in the case of conflict with any other documents pertinent to depot
     maintenance.

     Conflicting Guidance. A conflict exists between the MWO and the DMWR.
     The MWO was never updated to reflect changes in equipment and procedures
     resulting from the problems experienced in Korea during 1994. Although this
Field Modifications to the TOW Missile Launcher ACU

      conflict exists, the DMWR clearly states that its procedures take precedence in
      the event of any conflict pertinent to depot maintenance. Therefore, the test
      equipment required and the modification procedures in the DMWR superseded
      the MWO. For this reason, we did not make a recommendation to update the
      modification procedures in the MWO.


ACU Field Modifications

      More than 800 TOW missile launcher ACUs have been modified in the field
      with no assurance that the system design specifications were met. The field
      modification includes both ACU and launcher final assembly and testing.

      ACU Final Assembly and Testing. Final assembly and testing of the ACU
      requires a switch adjustment gauge set, part 1366078, to ensure proper
      alignment of the ACU. The gauge set comprises gauge assemblies, tools, and
      fixtures as shown in Figure 2.




       Figure 2. Switch Adjustment Gauge Set




                                           6
                               Field Modifications to the TOW Missile Launcher ACU

The gauge set is used to align and test umbilical and motor stop switches within
the ACU. Those switches must be set to precise tolerances to satisfy design
specifications and meet minimum in-process quality assurance inspection points
required by the DMWR.

        Alignment of Umbilical Switches. The DMWR requires the gauge set
to align and test the ACU umbilical switches Sl, S2, S3, and S4. Switches Sl
and S2 are associated with the inboard launcher tube, while S3 and S4 are
associated with the outboard launcher tube. The S2 and S4 switches, when
activated, signal that a missile is present. The Sl and S3 switches, when
activated, signal that a missile has been selected. According to the design
specifications, those umbilical switches should be aligned to activate when the
bottom of the holdback pin plunger is 0.965 inches, plus or minus 0.020 inches,
from the bottom of the ACU housing as shown in Figure 3.




                        f
                    -i-e.-
            . sss

                     -w      0.010

                                                             -T-i
Figure 3. Umbilical Switch Specification

The Sl through S4 gauge assembly of the gauge set is used to measure the depth
of the holdback pin plunger at the time the umbilical switches have been
activated.

         Alignment of Motor Stop Switches. The DMWR requires the gauge
set to align and test motor stop switches S5 and S6. The S5 switch is the
electrical limit switch for the extend function of the ACU motor. The S6 switch
is the electrical limit switch for the retract function of the ACU motor. The S5
and S6 settings affect the distance that the holdback pin plunger and umbilical
cable are extended when arming the system and retracted when disarming the
system. The gauge set, specifically the S5 gauge assembly is required to ensure
that the holdback pin plunger depth in relation to the ACU housing is between
1.058 inches and 1.134 inches, as shown in Figure 4, in order to satisfy design
specifications.




                                           7
Field Modifications   to the TOW Missile Launcher    ACU




                                                                         1
                                                                       1.134 lnchar
                                                                       1 .OS8 inches


                                                                         T



       Figure 4. Holdback Pin Plunger Depth Specification



       Fiial Assembly and Testing of the Launcher Assembly.      Final assembly and
       testing of the launcher assembly involves performing mechanical adjustments to
       the launcher assembly. The DMWR requires setscrew and stop block
       adjustments and holdback pin plunger and umbilical connector distance tests be
       performed. Those adjustments and tests are performed to ensure operability of
       the TOW missile launcher.

              Setscrew and Stop Block Adjustments.     A setscrew adjustment gauge,
       part 12295912-40101-5 (shown in Figure 5), is required to perform the setscrew




       Figure 5. Setscrew Adjustment Gauge

       and stop block adjustments to ensure that they meet the design specifications.
       The setscrew is to be set between -0.0005 inches and 0.0005 inches; and the
       stop block is to be set between 0.002 inches and 0.001 inches.




                                            8
                          Field Modifications to the TOW Missile Launcher ACU

            Holdback Pin Plunger and Umbilical Connector Distance Tests. The
    distance test is performed to ensure that the holdback pin plunger and umbilical
    connector travels the minimum required distance. The minimum distance for
    the holdback pin plunger is 0.350 inches, and for the umbilical connector
    0.457 inches. The DMWR requires the use of the boresight alignment fixture
    (shown in Figure 6), part 12295912-40101-6, to perform this test.




    Figure 6. Boresight Alignment Fixture


Quality Assurance Requirements
    The program office did not enforce the qualit assurance requirements
    prescribed by the MWO and DMWR. Speci fJzally, the program office did not
    enforce the use of required test equipment, required modification and test
    procedures, and a quality assurance plan.

    Required Test Equipment. The program office did not enforce the use of
    special test equipment required by the DMWR to test the modified TOW missile
    launcher. The DMWR specifically identifies the special tool kits, jigs, test
    measurement, and diagnostic equipment required to check the operation of the
    TOW missile launcher. For example, the DMWR specifically requires the use
    of the switch adjustment gauge set; the setscrew adjustment gauge; and the
    boresight alignment fixture, as discussed above.

            Use of TOW 2 Subsystem Support Equipment. Instead of the
    required test equipment, the field modification teams used the TOW 2
    subsystem support equipment supplemented by the Raytheon-manufactured
    Bradley Fighting Vehicle System turret logic emulator to perform quality
    assurance testing of the modified TOW missile launcher. The equipment
    provided off-vehicle direct support level testing of the TOW missile launcher.
    The capability of the Raytheon Systems Company test equipment was not
    sufficient to satisfy the quality assurance testing requirements of the DMWR.
Field Modifications to the TOW Missile Launcher ACU

               Testing the Adequacy of Off-Vehicle Test Set. The test equipment
      used in the field demonstrated that the TOW missile launcher was operational,
      not that the launcher was operating within required design specifications. The
      test set was not designed to and cannot perform the test required by the DMWR.
      To test the adequacy of using the off-vehicle test set, we requested the depot
      technicians at Letterkenny perform the same test that was used in the field.
      Using the required special test equipment, Letterkenny technicians aligned the
      umbilical switches Sl and S3 below and above the limits of the system design
      specification. The design specifications for those switches are between
      0.945 inches and 0.985 inches. First, the Sl and S3 switches were set below
      the system design specifications of 0.840 inches and 0.860 inches, respectively,
      and tested. Second, Sl and S3 switches were set above the system design
      specifications of 0.995 inches and 1.010 inches, respectively, and tested. The
      DMWR requires verification of those specifications for quality assurance.
      Despite design specifications not being met, the off-vehicle test set passed the
      ACU in both cases. Passing this test does not provide confidence that the ACU
      will function reliably in the future.

      Required Modification and Test Procedures. The program office did not
      enforce required modification and test procedures prescribed by the DMWR.
      The program office did not enforce use of the required test equipment to
      perform the modification. Without the required test equipment, many of the
      DMWR procedures, like those described above, could not be implemented.
      Additionally, the procedures implemented did not provide adequate results.

      We requested that Letterkenny technicians conduct a test to determine whether
      the procedures used in the field yielded results that conformed to the system
      design specifications. Letterkenny technicians performed ACU final test
      procedures using equipment required by the DMWR on 15 ACUs, which had
      been modified without using the required test equipment and procedures. The
      test involved taking eight separate measurements, specifically, the alignment of
      the umbilical and motor stop switches (Sl through S6) and the holdback pin
      plunger depth for both missile launch tubes. Of the 15 ACUs tested, 13 had at
      least one of the switches misaligned. Overall, 27 of the 120 measurements
      taken were not within established design specifications. The complete results of
      our test are detailed in Appendix D.

      Quality Assurance Plan. The program office did not enforce the requirement
      for the contractor to establish a quality assurance plan. The DMWR requires
      that the contractor prepare a quality assurance plan covering the work required
      and provide the plan to the program office for review and approval before the
      work is started. Any material or procedural departure from the DMWR
      requires prior program office approval. The contractor did not prepare a quality
      assurance plan or request a waiver.

      The quality assurance requirements of the DMWR stipulate that quality
      assurance mspections be performed. The minimum required in-process quality
      assurance inspections are identified throughout the DMWR. Some of those
      inspections can be performed only by using special test equipment. As




                                          10
                           Field Modifications to the TOW Missile Launcher ACU

     discussed earlier, the program office did not enforce the requirement to use
     special test equipment and, therefore, some of the minimum required
     inspections could not be performed.

     ACU Interchangeability and Reliability. The interchangeability and
     reliability of ACUs modified in the field could have been degraded.
     Specifically, noncompliance with DMWR quali assurance requirements
     resulted in ACUs that did not meet design speciFrcations. We questioned
     engineers and managers from both the program office and the contractor
     regarding the nature and degree of impact resulting from not meeting the design
     specifications. Although the overall impact was uncertain, the contractor’s
     design engineer stated that not meeting specifications could adversely affect
     ACU interchangeability. The contractor and the program office agreed that a
     thorough technical evaluation of the design specifications would have to be
     performed to determine the impact on interchangeability and reliability of the
     system.

     Future Field Modifications. Approximately 1,200 ACUs are scheduled to be
     modified in the field by September 1999. The program office should ensure
     that the MWO and DMWR quality assurance requirements are met.


Conclusion

     The program office purchased special test equipment, at a cost of $41,100, and
     updated modification and test procedures to ensure ACU design specifications
     would be met and to correct problems experienced in Korea with misaligned
     switches. However, the program office did not enforce the use of the special
     equipment and updated procedures during field modifications. As a result,
     interchangeability and reliability of more than 2,000 ACUs, valued at more than
     $12 million, could be adversely affected.


Management       Actions

     On March 26, 1998, we briefed the finding to the Assistant Deputy Under
     Secretary of Defense (Maintenance Policy, Programs and Resources) and Army
     officials in the Office of the Deputy Chief of Staff (Logistics). The finding was
     well received and management agreed that action was necessary to resolve the
     problem. Army management requested an additional briefing be provided to
     representatives of the Army acquisition community responsible for overseeing
     the ACU modifications. We provided the briefing on April 10, 1998. As a
     result of our briefings, the Army has aggressively begun collecting data in an
     effort to develop a plan of action to address the finding.




                                         11
Field Modifications to the TOW Missile Launcher ACU

Recommendations,          Management           Comments,       and Audit
Response

      Revised Recommendation. As a result of management comments, we revised
      draft Recommendation 5. to omit the requirement to direct future work load to
      Letterkenny Army Depot.

      We recommend that the Army Acquisition Executive in coordination with
      the Army Deputy Chief of Staff (Logistics):

              1. Initiate a thorough technical evaluation of the design
      specifications for the armament control unit umbilical and motor stop
      switches to determine the full effect of not meeting the design specifications.

      Management Comments. The Army concurred and stated that the technical
      evaluation is scheduled for completion June 30, 1998.

             2. Evaluate the adequacy of test equipment and procedures in view
      of the results of the technical evaluation.

      Management Comments. The Army concurred and stated that the issue would
      be covered under the technical evaluation.

            3. Update the depot maintenance work requirement 9-1440-453-l
      procedures, as necessary.

      Management Comments. The Army concurred and stated that the Army also
      intends to update the modification work order 9-1425-453-50 and that the
      changes to those documents would be completed in the 4th quarter of FY 1998.

              4. Determine the necessity of performing corrective actions to
      previously modified Tube-Launched, Optically Tracked, Wire-Command
      missile launchers.

      Management Comments. The Army concurred, stating that the technical
      evaluation will address potential problems. The decision on what corrective
      actions may be required will be based on the results of testing, scheduled for the
      4th quarter of FY 1998. The Army further stated that armament control unit
      modifications have been halted until the modification work order has been
      updated and validated.

             5. Direct that all work loads for future field modifications comply
      with the updated modification work order 9-1425-453-50 and depot
      maintenance work requirement 9-1440-453-l quality assurance -
      requirements.

      Management Comments. The Army nonconcurred with the draft
      recommendation, stating that it is Army policy to perform modifications in the
      private sector using best value as the criteria. As an alternative, the Army
      intends to award the FY 1999 armament control unit modification program
      using best value and the updated modification work order to either Raytheon
      Systems Company or Letterkenny Army Depot. The Army stated that the



                                          12
                     Field Modifications to the TOW Missile Launcher ACU

updated modification work order will address quality assurance procedures and
verification in accordance with Army policy and that adherence to those
procedures will be documented on Department of the Army Form 2407.

Audit Response. The Army proposed action to perform future modification
work loads in accordance with updated MWO and DMWR quality assurance
requirements satisfies the intent of the recommendation. We recognize that the
quality assurance requirements of the MWO and DMWR may change based on
the results of the technical evaluation and agree with the Army intention to
award future work loads using a best value approach.




                                   13
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology
    We reviewed the application of MWO 9- 1425-453-50 and DMWR 9- 1440-
    453-1 to the TOW missile launchers at the depot and in the field. We reviewed
    the MWO, November 1993; depot maintenance work requirement, January
    1997; required test equipment; and test equipment actually used in the field to
    apply the MWO. We interviewed personnel from the TOW missile launcher
    program office; depot maintenance technicians; and managers, engineers, and
    field technicians from Raytheon Systems Company. We witnessed
    modifications performed at Fort Stewart, Georgia, and tests of the modified
    ACUs using the required test equipment and procedures. We also reviewed
    maintenance request forms (DA Form 2407), modification schedules, and status
    reports dated from January through April 1998.

    Use of Computer-Processed      Data. We did not use computer-processed data or
    statistical sampling to perform this audit.

    Use of Technical Assistance.   An industrial engineer assisted us by interpreting
    technical drawings and data packages.

    Audit Type, Dates, and Standards. We performed this program audit from
    February through March 1998 in accordance with auditing standards that the
    Comptroller General of the United States issued, as implemented by the
    Inspector General, DOD.

    Contacts During the Audit. We visited or contacted individuals or
    organizations within DOD and the Raytheon Systems Company. Further details
    are available upon request.


Management Control Program Review
    DOD Directive 5010.38, “Management Control Program, n August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    We did not review the management control program for management and
    execution of modifications to the TOW missile launcher because the General
    Accounting Office has identified material management control weaknesses with
    the Army management of the MWO Program. The Army has initiated
    corrective action. It is revising Army Regulation 750-10, “Maintenance of
    Supplies and Equipment, n August 1, 1984, and approval of a proposal for a
    new study effort to design and develop an MWO integrated management
    information system is pending.



                                         16
Appendix B. Summary of Prior Coverage

    During our review, we identified two related reports.


General Accounting        Office

    General Accounting Office Report No. NSIAD-98-14 (OSD Case No. 1437),
    “Army Equipment Management of Weapon System and Equipment
    Modification Program Needs Improvement,” October 10,1997, states that
    Army headquarters officials and Army Materiel Command no longer have the
    information needed to effectively oversee and manage the Army MWO
    Program. They do not have an adequate overview of the status of the
    equipment modifications across the force, funding requirements, logistical
    support requirements, and information needed for deployment decisions. Also,
    maintenance personnel have not always known which modifications should have
    been made to equipment or which modifications have actually been made and
    had difficulty obtaining spare parts to maintain modified equipment. In
    addition, multiple MWOs for the same piece of equipment were not always
    coordinated. Maintainers of equipment have not always received adequate
    notice of pending modifications that adversely affect training schedules and the
    maintenance of equipment. Further, maintainers did not always receive the
    technical information they needed in a timely manner to properly maintain
    modified equipment. Also, equipment did not always work after modifications
    were made. Supply system personnel have not always followed policies and
    procedures to ensure that supply system records were updated to show the
    addition of new spare parts and the deletion of replaced spare parts. The report
    recommended that the Secretary of the Army direct actions necessary to provide
    managers at all levels ready access to the information they need to oversee,
    manage, and implement the MWO Program and to ensure compliance with
    Army policies and procedures; to clarify regulations to ensure that program
    sponsors and supply system personnel provide proper logistical support for
    modified equipment, including ordering appropriate initial spare parts when
    MWO kits are ordered, updating technical information and providing it to units
    when MWO kits are installed, and properly phasing out old spare parts and
    adding new items to its supply system; and to establish an effective mechanism
    for program sponsors to coordinate and schedule their MWOs among
    themselves and their customers, to reduce the amount of manpower, and to
    minimize the reportable mission time required to complete the MWOs. The
    Army concurred with the findings and recommendations, stating that Army
    Regulation 750-10 is being revised and approval of a proposal for a new study
    to design and develop an MWO integrated management information system is
    pending.




                                        17
Appendix B. Summary    of Prior Coverage



Army Review
     The ACU Red Team October 1994 Report states that after modifications were
     completed to the U.S. Army 2nd Infantry Division, Korea, AC&, over
     50 percent of the Bradley Fighting Vehicle Systems could not fire TOW
     missiles. The report states that the failures were caused by the misalignment of
     Sl through S4 switches. The three causes of the misalignment were that the
     switches were neither level nor secured in place and holdback pin and spring
     assemblies were not installed in all missile simulators. The report also notes
     that the S5 and S6 switches were improperly adjusted. The report states that a
     plan of action was started that included bonding and adjusting switches Sl
     through S6; installing holdback pins for missile simulators; and proposing an
     engineering change and a request for deviation or waiver to resolve the items
     noted.




                                           18
Appendix C. Memorandum for Deputy Under
Secretary of Defense (Logistics)


                                         INSPECTOR     GENERAL
                                        DEPARTMENT    OF GEFEISE
                                          4ooAFwYNAvYoANE
                                        ARLINGTON.  VMGNW   22202




                                                                                   December 23, 1997    ,

     MEMORANDUM          FOR DEPUTY      UNDER     SECRETARY        OF DEFENSE     (LOGISTICS)

     SURJECl?    Audit of the Tactical Missile Consolidation   at Letterkenny Army Depot Costs and
                 Benefits (Project No. 7LB-5031 .Ol)



              We are conducting the subject audit to evaluate the costs and benefits associated with
     the tactical missile consolidation at Letterkenny Army Depot. As part of the audit, we
     reviewed .work loads associated with the Tube-Launched,     Optically Tracked, Wire-Command
     (TOW) MissiIe Launcher for the Bradley Fighting Vehicle System. We are providing this
     memorandum on the application of modifications prescribed by the Department of the Army
     Modification Work Order (MWO) 9-1425-453-50,          N&ember    1.5. 1993, for your information
     and use.

             This memorandum is not subject to the provisions of DOD Directive 7650.3, but is
     intended to provide management an opportunity to evaluate the adequacy of quality assurance
     testing procedures used during field modifications and to correct iny procedural deficiencies
     that exist prior to executing future field modifications.

            MWO 9-1425-453-50.    The MWO provides insu-uctions for updating the TOW Missile
     Launcher, National Stock Number 1440-01-167-7514, and the Armament Control Unit
     (ACU), National Stock Number 1440-01-160-2591,      to the latest configuration. The MWO
     requires the modification be performed by a depot maintenance team and that quality assurance
     testing he performed as prescribed by the Depot Maintenance Work Requirement (DMWR)
     9-1440-453-l.   February 1996.

              Testing Requirements. The DMWR specifically identifies the test equipment and
     fixtures required to check the operation of the TOW Missile Launcher and the ACU.
     According to the MWO, the same test equipment and fixtures should be used to satisfy the
     quality assurance testing requirements after applying the modification.    Moditication of the
     ACU includes the setting of four switches, SI, S2, S3. and S4. These switches are for
     identification and availability of “missile present” and ‘missile selection’ when operating the
     TOW Missile Launcher. The switches are adjusted to activate when the TOW Missile
     Launcher is placed in the ‘ARM”      position. Ensuring these switches are set properly requires
     a special gauge set, the switch adjustment gauge set, Part 1366078. However, personnel from
     the U.S. Army Aviation and Missile Command and Hughes Aircraft Company applying the
     field modifications stated they did not use the switch adjustment gauge set to adjust switches
     Sl, S2. S3, and S4. Instead. the field modification teams tested the operation of the moditicd
     ACU using the Bradley TOW/TOW2 Sub-System Support Equipment supplemented with a
     Bradley Fighting Vehicle System Turret Logic Emulator (BTLE) or the Bradley vehicle itself.




                                                    19
Appendix C. Memorandum for Deputy Secretary of Defense (Logistics)




             limited testdoes not verify that the switches are ret to th proper specification, only that
        the MU is lhztional. The spccifihtioo rrquh the ACU switches be set between 945 and
        .985 inches and cannot be chcckcd without using the special test equipment.

                Although the compktc effect of not chking the ACU switch settings to the
        spaziftcation is unhewn, the amdfications should be applkd as prescribed in the MWO and
        corrcspondii Dh4WR. Our hnediate concern is that fuaue f=ld modifications be performed
        using the required test equipment. The modification schedule provided by the U.S. Army
        Aviation and Missik Command indicates additional modifuzations arc scheduled ro begin on
        January 5.1998.

               We will continue to review this issue during our audit, and dcterminc the effect of
        IUXusing the proper cqulpmcnt and fixtures to set the ACU switches to the specification.
        If you have 8ny questions or commcnB regardii this memorandum, please contact
        Mr. John A. Garnxu. Audit Program Director, at (703) 604-9176 (DSN 664-9176) or
        Mr. Stephen T. Hampton, Acting Project Manager, at (703) 604-9194 (DSN 664-9194).




                                              David K. Stccnsma
                                       Deputy Assistant Inspector General
                                                 for Auditing
Appendix D. Field Modification Test Data

   According to the design specifications, umbilical switches Sl through S4 on the
   TOW missile launchers should be aligned so that they activate when the bottom
   of the holdback pin plunger is between 0.945 inches and 0.985 inches from the
   bottom of the ACU housing. The DMWR requires that the distance be
   measured with a component of the test gauge set, a feeler gauge, part 1365177,
   using required test procedures. We witnessed a Raytheon Systems Company
   field service technician modify 15 ACUs at Fort Stewart, Georgia, for the
   Georgia National Guard. A Letterkenny technician then tested the 15 modified
   ACUs, using the required test equipment and procedures prescribed by the
   DMWR, to determine whether the modified ACUs met system design
   specifications (see Table D- 1).

        Table D-l. Switches Sl Through S4 Alignment After Modification

                                         Specification (inches)

   Serial Number        ,945?985        ,94::9*5       ,94::9*5       945sfg85

   MFT-046FS                0.975            0.956          0.984         0.975
   MFT-047FS                0.965            0.956          0.940         0.936
   MFT-048FS                0.947            0.962          0.963         0.954
   0296                     0.957            0.972          0.951         0.982
   0455                     0.956            0.974          0.961         0.966
   0745                     0.920            0.945          0.950         0.958
   0924                     0.950            0.962          0.940         0.941
   1788                     0.941            0.934          0.968         0.971
   4059                     0.947            0.983          0.956         0.952
   4101                     0.940            0.965          0.950         0.958
   4128                     0.975            0.986          0.976         0.957
   4135                     0.928            0.939          0.950         0.939
   4161                     0.930            0.916          0.960         0.955
   4233                     0.942            0.968          0.982         0.978
   4444                     0.960            0.973          0.919         0.906

   Switches
   Misaligned                  6               4              3              4

   Note: Bold indicates that the switch is set outside the design specification.




                                        21
Appendix D. Field Modification Test Data

      According to the design specifications, alignment of the motor stop switches S5
      and S6 must be between .023 and .033 inches, and the holdback pin plunger
      depth for both inboard and outboard launcher tubes must be between 1.058 and
      1.134 inches when extended. The S5 and S6 switches control the extend and
      retract functions of the ACU motor. We requested that tests of the alignment of
      the S5 and S6 switches and the holdback pin plunger depth be tested for the
      15 ACUs modified at Fort Stewart by a Raytheon Systems Company field
      service technician. The test was performed by a Letterkenny technician who
      used the required test equipment and procedures called for in the DMWR to
      determine whether the modified ACUs met system design specifications (see
      Table D-2).

             Table D-2. Switches S5 and S6 Alignment After Modificat.ion

                                            Specification (inches)
                                                        S5 Inboard        S5 Outboard
                          ,)23_;;33      ,023!.603z     1,058 -1.134      1.058-l. 134

      MFr-046FS                0.018            0.013         1.104              1.088
      MFT-047FS                0.025            0.029         1.094              1.066
      MFT-048FS                0.029            0.029         1.092              1.097
      0296                     0.025            0.054         1.084              1.088
      0455                     0.025            0.028         1.104              1.103
      0745                     0.029            0.033         1.076              1.094
      0924                     0.025            0.041         1.087              1.068
      1788                     0.025            0.025         1.090              1.084
      4059                     0.028            0.046         1.089              1.088
      4101                     0.029            0.022         1.090              1.088
      4128                     0.029            0.037         1.099              1.093
      4135                     0.025            0.029         1.094              1.099
      4161                     o.ooo            0.014         1.078              1.084
      4233                     0.029            0.025         1.101              1.104
      4444                     0.000            0.024         1.086              1.072

      Switches
      Misaligned                  3               7              0                    0


      Note: Bold indicates that the switch is set outside the design specification.




                                           22
Appendix E. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army
Army Acquisition Executive
  Commander, Tactical Missile Program Executive Office
Deputy Chief of Staff for Logistics
Commander, Army Materiel Command
  Commander, Aviation and Missile Command
  Commander, Industrial Operations Command
      Commander, Letterkenny Army Depot

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         23
Appendix E. Report Distribution

Non-Defense Federal Organizations                   and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center

Chairman and ranking minority member of each of the following committees and
subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                            24
Part III - Management   Comments
Department of the Army Comments



                                              DEPARTMENT OF THE ARMY
                                           OFFICE OF THE ASSISTANY SECRETARY
                                         RESfARCM DEVELOPWNT AN0 MXWSlYION
                                                   Ia3 ARMY PEw1&sON
                                                WASnIl TTol4 DC 20310.0105




     SARD-SM                                                                       9 June 1998

     MEMORANDUM FOR READINESS AND LOGISTICS SUPPORT DIRECTORATE,
                       OFFICE OF THE ASSISTANT INSPECTOR GENERAL,
                       DEPARTMENT OF DEFENSE

     SUBJECT: Comments on the Recommendations Contained in the Draft DoDlG Audit of the
     Armament Control Unit (ACU) Modification to the MW Missile Launcher (TML.) for the
     Bradley Fighting Vehicle


     1. Reference. DoDIG Draft Audit Report, Modifications to the Tube-Launched, Optically
        Tracked, and Wire-Command Missile Launcher for the Bradley Fighting Vehicle System
        dated I May 1998.

     2. The Anny’s comments to the draft DoDIG audit report rccommcndations           are:

        a.   Reeommeodrtlon      1: Initiate a thorough technical evaluetion of the design specifications
             for the armament control unit umbilical and motor stop switches to determine the full
             effect of not meeting the design specifications.
             Response: Concur. Draft technical evaluation submitted on 1 June 1998. The final
             technical evaluation is scheduled for completion on 30 June 1998.


        b. Recommendation 2: Evaluate the adequacy of test quipment and procedures in view of
           the results of the technical evaluation.
           Response: Concur. Estimated evaluation completion date: 30 June 1998. issue covered
           under technical evaluation.

        c.   Recommendation 3: Update the depot maintenance work requirement 9-1440-453-l
             pnnxdures, as necessary.
             Raponsc: Concur. the Army also intends to update the modification Work Order 9-
             1423-453-50. Changes to these documents will be completed after the technical
             evaluation is finished. Target date for completion 4h Quarter FY98.




                                                       26
                                                     Department of the Army Comments


                                                                                              Final   Report
                                                                                               Reference




  d. Recommendation 4: Determine the necessity of performing corrective actions to
     previously modified Tube-Launched, Optically Tracked, Wire-Command missile
     launchers.
     Response: Concur. The technical evaluation will address potential problems. A
     sampling of modified ACU’s is scheduled for 4” QTR FY98. Results from this test will
     provide the basis for a decision on what corrective action may be required. ACU
     modifications have been halted until the MWO has been updated and validated, and the
     testsdescribed here have been performed.

  e. Recommendation 5: Direct that all work loads for future modifications be performed by    Revised
     Letterkenny Army Depot to ensure compliance with the modiftcation work order 9-1425-
     453-50 and depot maintenance work requirement 9-1440-453-I quality assurance
     requirements.
     Rssponre: Non-concur. It is DOD and Army policy to accomplish modifications and
     upgrades of weapon systems and equipment in the private sector using best value as the
     criteria, provided the work is no1 needed in organic facilities to satisfy core depot
     maintenance requirements. This MWO is not needed to satisfy core requirements at
     Letterkenny Army Depot (LEAD). However, LEAD will bt considered in determining
     where the MWO will be accomplished. Using best value and using the updated
     modification work order (MWO) 9-1425453-50 the Army intends to award the FY99
     ACU modification program LOeither Raytheon or LEAD. The updated MWO will
     address quality assurance procedures and veritication IAW Army policy. Adherence to
     these procedures will be documented on DA Form 2407.

3. POC for this action is MAJ William A. Breffeilh, SARD-SM. (703) 604-7210 or MAJ Gary
   Thie. CCAWS PMO, (256) 842-0846.




                                             NNIS L. PATRICK

                                          Director. Missile Systems




                                            27
Audit Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.

Shelton R. Young
Raymond D. Kidd
John A. Gannon
Stephen T. Hampton
LTC Mary L. Franklin, U.S. Army
William H. Zeh
Kevin T. O’Connor
Chandra Shankla
